                                                                             Report No. DODIG-2013-111




              I nspec tor Ge ne ral
                                                       Department of Defense

              AUGUST 1, 2013




                     Status of Enterprise Resource
                     Planning Systems’ Cost, Schedule,
                     and Management Actions Taken to
                     Address Prior Recommendations




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                              the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                          Fraud, Waste and Abuse
                         HOTLINE
                         1.800.424.9098 • www.dodig.mil/hotline




For more information about whistleblower protection, please see the inside back cover.
                                  INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                 4800 MARK CENTER DRIVE
                              ALEXANDRIA, VIRGINIA 22350-1500


                                                                                 August 1, 2013

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF
			                FINANCIAL OFFICER, DOD
			 DOD DEPUTY CHIEF MANAGEMENT OFFICER
			 ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT 	
			                AND COMPTROLLER)
			 NAVAL INSPECTOR GENERAL
			 AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Status of Enterprise Resource Planning Systems’ Cost, Schedule, and Management 	
	        Actions Taken to Address Prior Recommendations (Report No. DODIG-2013-111)

We are conducting this audit in response to a congressional request to update our previous
audit work. DoD reported cost decreases totaling $680.9 million for four of six enterprise
resource planning (ERP) systems and cost increases of $298.9 million for two systems. The
DoD also reported schedule delays for three of the six ERP systems since previously reported in
report DODIG-2012-111, “Enterprise Resource Planning Systems Schedule Delays and
Reengineering Weaknesses Increase Risks to DoD’s Auditability Goals,” July 13, 2012. In addition,
DoD management has identified corrective actions taken to ensure the integrity of business
process re-engineering (BPR) assessments submitted for DoD ERP programs. DoD management
identified plans to ensure previously reported issues were addressed.            We considered
management comments on a discussion draft of this report in preparing the final report.


Audit Objective
Our overall objective was to determine whether additional ERP systems cost increases and
schedule delays have occurred since our audit report, DODIG-2012-111. We also determined
whether DoD has implemented corrective actions to ensure the integrity of business process
reengineering assessments submitted for DoD ERP systems.


DoD Deputy Chief Management Officer and Chief
Management Officers of the Military Departments
Responsible for Business Systems Modernization
The DoD Deputy Chief Management Officer (DCMO) is the Principal Staff Assistant and advisor
to the Secretary of Defense and Deputy Secretary of Defense for matters relating to the




                                                                                             DODIG-2013-111 │ 1
                 management and improvement of integrated DoD business operations. DoD formally
                 established the DCMO through DoD Directive 5105.82, October 17, 2008. The directive
                 provides specific duties in the areas of strategic planning, performance management,
                 process improvement, and defense business systems oversight to the DCMO. Since
                 that time, the DCMO’s responsibilities have continued to grow. In addition to normal
                 duties, the DCMO collaborates with the chief management officers (CMOs) of the
                 Military Departments in identifying common issues relating to the management and
                 improvement of business operations within and among their respective departments.
                 In addition, Public Law 110-417, “Duncan Hunter National Defense Authorization Act
                 for Fiscal Year 2009,” section 908, “Business Transformation Initiatives for the Military
                 Departments,” October 14, 2008, requires CMOs to develop a well-defined enterprise
                 wide business systems architecture and transition plan.        This plan encompasses
                 end-to-end business processes capable of providing accurate and timely information in
                 support of business decisions of the military department.

                 Public Law 112-81, “National Defense Authorization Act for Fiscal Year 2012,”
                 December 31, 2011, Section 901, requires the pre-certification authority determine that
                 an appropriate BPR effort is completed before funds in excess of $1 million are obligated
                 for defense business systems. Public Law 111-84, “National Defense Authorization
                 Act of 2010,” October 28, 2009, Section 1072, also requires that the appropriate CMOs
                 determine whether an adequate BPR effort occurred for ongoing defense business
                 systems modernizations that have a total cost in excess of $100 million. The CMOs also
                 ensure that the business processes to be supported by the defense business systems
                 modernization would be as streamlined and efficient as possible.


                 Audit Readiness Guidance for DoD Financial Systems
                 Public Law 112-239, “National Defense Authorization Act for Fiscal Year 2013,
                 section 1005, “Audit Readiness of Department of Defense Statements of Budgetary
                 Resources,” January 2, 2013, states that the Chief Management Officer of the
                 Department of Defense and the chief management officers of each of the Military
                 Departments should ensure that plans to achieve an auditable statement of budgetary
                 resources of the Department of Defense by September 30, 2014, are sustainable
                 and affordable and will not delay full auditability of financial statements. Section 1005
                 also establishes new Financial Improvement and Audit Readiness (FIAR) requirements
                 for the Military Departments to report on actions taken to meet the 2014 Statement of
                 Budgetary Resources auditability requirement. The May 2013 FIAR Plan discussed the
                 auditability deadlines for audit readiness on the Statement of Budgetary Resources for
                 general funds by September 30, 2014, and audit readiness on all financial statements



2 │ DODIG-2013-111
by September 30, 2017. The guidance for the FIAR plan states that reporting entities
implementing the ERP systems as a solution for resolving audit impediments should
map known processes and control weaknesses to the new systems’ requirements to
ensure that the systems will adequately address the impediments.


Background on ERP Systems
Report DODIG-2012-111 identified the following six ERP systems that are needed
to enable the department to produce auditable financial statements: General Fund
Enterprise Business System (GFEBS), Logistics Modernization Program (LMP), Defense
Enterprise Accounting and Management System (DEAMS), Defense Agencies Initiative
(DAI), Navy ERP, Enterprise Business System (EBS)–Energy Convergence (EC), and
EBS-EProcurement.1 DoD implemented other ERP systems; however, during this audit,
we only reviewed the six systems discussed above.2


Prior Audit
DoDIG Report No. 2012-111, identified DoD life-cycle cost increases of $8.0 billion
and schedule delays ranging from 1.5 to 12.5 years during system development and
implementation. As a result of the schedule delays, DoD will continue using outdated
legacy systems and diminish the estimated savings associated with transforming
business operations through business systems modernization.

In addition, the report found that for the six ERP systems, the DoD DCMO and the CMOs
of the Military Departments did not verify that business processes were streamlined
and efficient as required by Section 1072; they instead relied on self-compliance
assertions when they certified funding. As a result, there is an increased risk the
ERP systems will incur additional cost increases, schedule delays, and affect the DoD’s
ability to achieve an auditable Statement of Budgetary Resources by FY 2014 and audit
readiness for all DoD financial statements by FY 2017.




	1	
    EBS-EC and EBS-EProcurement are two acquisition programs to develop enhancements to EBS; however, we consider
    EBS one system for purposes of this audit.
	2	
    Additional ERP systems identified in DoDIG Report No. 2012-111 and the 2013 FIAR plan include Global Combat Support
    System, Integrated Personnel and Pay System, Global Combat Support System – Marine Corps, Integrated Pay and
    Personnel System (Navy and Air Force), NexGenIT, and Enterprise Business Accountability System.




                                                                                                                          DODIG-2013-111 │ 3
                 DoD Cost and Schedule Changes
                 DoD reported cost decreases totaling $680.9 million for four of six ERPs and cost
                 increases of $298.9 million for two systems. The DoD also reported schedule delays
                 for three of the six ERP systems since previously reported on July 13, 2012, in report
                 DODIG-2012-111. The Program Management Offices (PMOs) provided explanations for
                 the cost and schedule changes as detailed below.

                            GFEBS–GFEBS PMO personnel reported that they experienced a
                            cost increase of $85.3 million since our previous report. GFEBS
                            PMO reported that the increase occurred due to support changes
                            in the management and refinement of business processes, to add
                            additional enhancements related to auditability and to establish
                            effective internal controls. However, GFEBS PMO reported no
                            changes to GFEBS system implementation schedule since the prior
                            report because they reached Full Deployment on July 1, 2012.

                            LMP–LMP PMO personnel reported that LMP had a cost decrease
                            but did not experience a change in schedule since our prior
                            report was issued. LMP PMO reported that the cost reduction of
                            $304.9 million occurred because of a reconciliation between the
                            Deputy Assistant of the Army, Cost and Economics, LMP Cost
                            Component Estimate, and the LMP Program Office estimate to
                            establish an Army Cost Position. During the reconciliation, every
                            line item in the estimate was reviewed in detail and discussed
                            by the Cost Review Board and, when necessary, modified in
                            accordance with Deputy Assistant Secretary of the Army, Cost and
                            Economics, and Cost Review Board, procedures. For example,
                            amounts included for risks associated with Transition of Services
                            were reduced.

                            Navy ERP–Navy ERP personnel reported that the estimated cost
                            of Navy ERP had decreased $152.1 million from the previously
                            reported amount because of operational efficiencies, leveraged
                            Navy investments in knowledge management, automated
                            testing, and web-based training. In addition, the PMO increased
                            Government staffing by converting contractors to Government
                            positions, revised their strategy to focus contract incentives on




4 │ DODIG-2013-111
cost reductions, reduced the number of second-tier contracts,
eliminated all but compliance-related engineering change
proposals, delayed functional and technical upgrades, and
lengthened and/or delayed the program’s hardware replacement.
In addition, Navy ERP PMO reported that they had a schedule
delay of 1 month. Navy ERP PMO reported that the 1-month delay
was the result of additional data analysis being conducted with
Follow-on Test and Evaluation onsite evaluations.

DEAMS–DEAMS PMO personnel reported that the estimated cost
of the DEAMS ERP decreased $211.8 million since our last report
because the cost estimate reported in DODIG-2012-111 was
based on a Program Office Estimate at a point in time. The current
life-cycle cost is an approved service-cost position based on a
reconciliation effort between the Program Office and the Air Force
Cost Analysis Agency. In addition, the DEAMS PMO reported that
they had a schedule delay of 3 months. The Air Force continues
to review and refine the estimated schedule for Increment 1 Full
Deployment and Increment 2. The most recent estimated schedule
reflects the adjustments to the deployment plan.

DAI–DAI PMO personnel reported that the program experienced
a cost increase of $213.6 million since our previous report. They
stated that the life-cycle costs provided during the last review
was the approved program estimate developed for Milestone B,
October 2010. DAI also established a project in FY 2013 to upgrade
the existing application to the next release, Oracle Release 12,
based on the need to maintain support, which is available only for
the current release.

DAI PMO stated they did not know the current full-deployment
date for the system.     They explained that the DAI System
Acquisition full-deployment milestone date will be determined
upon receipt of an Acquisition Decision Memorandum from the
DCMO as its Milestone Decision Authority. The DAI program
expects to receive an Acquisition Decision Memorandum by
the first quarter of FY 2014. The PMO stated that any prior
projections/proposed dates are no longer valid.




                                                                     DODIG-2013-111 │ 5
                     EBS–EBS PMO personnel reported that there were no cost
                     or schedule variances for EBS Core and EBS-EC.             For EBS
                     EProcurement, the PMO reported that they were conservative
                     in their estimates and noted that when they received the actual
                     expenditures, these were lower; they adjusted the estimates to
                     reflect the decrease in costs vs. estimates, and there was a decrease
                     in operations and support. In addition, the EBS EProcurement
                     PMO stated that the 5-month change in schedule was made to
                     decrease the risk of the program.

                     See Table 1 for a summary of the cost changes and Table 2 for a
                     summary of the schedule changes that the program management
                     offices have identified since the July 13, 2012, audit report.

                     Table 1. Cost Changes
                                          Life-Cycle      Current Life-     Increase or
                                        Cost Estimate      Cycle Cost     Decrease from
                                          Reported       Estimate as of    July 13, 2012
                                        July 13, 2012      June 2013          Report
                       System Name        (millions)        (millions)       (millions)
                      Army
                      GFEBS                   $1,425.3         $1,510.6               $85.3
                      LMP                      4,359.7          4,054.8           (304.9)
                      Navy
                      Navy ERP                 2,237.3          2,085.2           (152.1)
                      Air-Force
                      DEAMS                    2,158.9          1,947.1           (211.8)
                      DoD
                      DAI                        266.0            479.6               213.6
                      EBS-Core                 3,325.3          3,325.3                    0
                      EBS-EC                     701.2            701.2                    0
                      EBS-EProc                  774.4            762.3               (12.1)
                       Total                 $15,248.1        $14,866.1          ($382.0)




6 │ DODIG-2013-111
           Table 2. Schedule Changes
                                                                  Additional
                              Full Deployment    Current Full     Delay from
                                  Reported      Deployment as    July 13, 2012
                System Name     July 13, 2012    of June 2013       Report
            Army
            GFEBS                July 2012         July 2012          0
            LMP               September 2016    September 2016        0
            Navy
            Navy ERP           August 2013      September 2013     1 month
            Air-Force
            DEAMS               April 2017         July 2017      3 months
            DoD
            DAI                January 2016       Unknown         Unknown
            EBS-Core              July 2007        July 2007         0
            EBS-EC               June 2014        June 2014          0
            EBS-EProc         September 2013    February 2014     5 months



Systems with No Cost or Schedule Changes
Some systems’ costs and schedules remain unchanged since previously reported.
Specifically, costs were not changed for EBS Core and EBS-EC, and schedules were not
changed for GFEBS, LMP, EBS Core, and EBS-EC.


Cost Changes
According to ERP PMO officials, GFEBS and DAI experienced cost increases while
Navy ERP, EBS-Eprocurement, LMP, and DEAMS experienced cost decreases. The PMOs
attributed the cost decreases to their re-examination of cost estimates. The PMOs
reexamination of the life-cycle cost estimates may provide more accurate estimates
as they move forward in development and implementation of the ERP programs.
For instance,

        •	 the LMP PMO explained their cost reduction occurred as a result of a
           reconciliation in which every line item in the estimate was reviewed,
           discussed, and changed as appropriate;

        •	 the Navy ERP PMO explained the estimated cost decreased because of
           operational efficiencies such as automated testing and web-based training,
           as well as the elimination of all but compliance-related engineering
           change proposals;


                                                                                    DODIG-2013-111 │ 7
                          •	 the DEAMS PMO explained their cost reduction was based on a reconciliation
                             effort between the Program Office and the Air Force Cost Analysis Agency; and

                          •	 the EBS PMO explained that in FY12 they replaced prior estimates with actual
                             costs, which affected the complete life-cycle cost of the system.

                 However, GFEBS and DAI experienced additional cost increases.               The GFEBS PMO
                 explained that the increase to their life-cycle cost was due, in part, to establishing effective
                 internal controls and assessing financial data for accuracy. The DAI PMO explained
                 that a technical upgrade was required for the existing application in order to maintain
                 product support. The explanations provided by the ERP PMOs supported why cost
                 estimates increased or decreased.


                 Three Systems Had Schedule Delays
                 DEAMS reported a schedule delay of 3 months, Navy ERP reported a schedule delay
                 of 1 month, and EBS-Eprocurement reported a schedule delay of 5 months. In addition,
                 DAI PMO personnel were unable to identify their planned full deployment date and
                 stated any previously provided dates are no longer valid. We questioned the DAI PMO
                 on their inability to provide a planned date; the DAI PMO stated that, because DAI
                 program does not have an approved deployment plan, they did not provide any schedule
                 information. They further stated, “the DAI System Acquisition Full Deployment milestone
                 date will be determined upon the receipt of an Acquisition Decision Memorandum from
                 the DCMO as our Milestone Decision Authority. The DAI program expects to receive
                 an Acquisition Decision Memorandum no later than 1st Quarter FY 2014. Any prior
                 projections/proposed dates are no longer valid.”


                 Conclusion
                 DoD experienced cost decreases totaling $680.9 million for four of six ERPs and cost
                 increases of $298.9 million for two systems. The DoD also experienced schedule delays
                 for three of the six ERP systems since previously reported on July 13, 2012, in report
                 DODIG-2012-111. Schedule delays continue to increase the risk that DoD will not
                 achieve an auditable Statement of Budgetary Resources by FY 2014 or accomplish full
                 financial statement audit readiness by FY 2017. However, our objective was to gather
                 and provide current data and reasons for cost increases and schedule delays. Because
                 no new issues were identified, we are not making any new recommendations.




8 │ DODIG-2013-111
Management Actions Taken to Address Prior
Recommendations
DoD management has identified corrective actions taken to ensure the integrity of
BPR assessments submitted for DoD ERP programs.          DoD management identified
plans to ensure previously reported issues were addressed. We restate below the
recommendations made in our previous report and the corrective actions taken.


Recommendations
Recommendation B.1
We recommend that the DoD Deputy Chief Management Officer and chief management
officers of the Army, Navy, and the Air Force:

        a.	 Develop procedures to review independently the business processes and
           verify that the information contained in business process reengineering
           assessment forms is accurate, complete, reliable, and supported in
           accordance with Office of the Deputy Chief Management Officer, “Guidance
           for the Implementation of Section 1072–Business Process Reengineering,”
           April 30, 2011.

        b.	 Develop procedures to limit funding to programs that are not demonstrating
           adequate business process reengineering.


DoD Deputy Chief Management Officer Actions
Report No. DODIG-2012-111 identified that the DoD DCMO did not verify that
business processes were streamlined and efficient as required by section 1072 of
Public Law 111-84.     The DoD DCMO stated in comments to our final report that
she would develop updated BPR guidance for the Military Department CMOs and
Pre-Certification Authorities to reflect the recent changes to the Investment Review
Board process contained in the FY 2012 National Defense Authorization Act. The new
BPR guidance was issued in September 2012. In addition to the new BPR guidance, the
DCMO established a Defense Business Council Charter and Defense Business Strategy
Investment Management Process Guidance. The DCMO also indicated she is monitoring
programs and limiting funding or deployment until a program passes a specific
milestone. Based on the Charter and Guidance, the DCMO is taking steps to improve the
BPR assessment process. Specifically, the new guidance reflects the changes made
to Public Law 112-81, the FY 2012 National Defense Authorization Act, and will help




                                                                                     DODIG-2013-111 │ 9
                 ensure that the Military Departments and defense agencies BPR packages are complete,
                 accurate, and supported before approving programs for funding.


                 Chief Management Officer of the Army Actions
                 The prior report identified that the CMO of the Army did not verify that business
                 processes were streamlined and efficient, as required by Section 1072. In response to
                 the report, the DCMO of the Army stated that the Army planned to ensure all business
                 systems were identified within the Army’s Business Systems Architecture and Business
                 Enterprise Architecture. The Army also planned to conduct BPR focused on end-to-end
                 business processes from the DoD Business Enterprise Architecture and within the
                 Army’s Business Systems Architecture.

                 The Army will capture the results of these activities to support portfolio reviews
                 conducted annually by the Office of the Secretary of Defense DCMO. The newly applied
                 DoD Defense Business Council process includes procedures to limit funding to
                 systems through a certification/de-certification process. The Army stated they will
                 brief this methodology focused on FY 2013 business systems certification at the
                 Defense Business Council. Prior to evaluating any program decision, the Army’s Business
                 Governance Forum, the Business Systems Information Technology Executive Steering
                 Group, will oversee the investments and provide recommendation for program funding
                 to the Defense Business Council.


                 Chief Management Officer of the Navy Actions
                 Report No. DODIG-2012-111 identified that the CMO of the Navy did not verify that
                 business processes were streamlined and efficient, as required by section 1072. In
                 response, the DCMO of the Navy stated that the Department of Navy incorporated the
                 BPR requirement into its business capability life-cycle process and continues to
                 identify improvements through all the sustainment/modernization phases. In FY 2012,
                 the Navy Investment Review Board process was changed to allow more time for the
                 Navy’s DCMO to review the BPR assessment form and ensure that the “as is” and “to be”
                 processes are documented. A memorandum was distributed on March 2, 2012, with
                 the goal to reestablish the Investment Review Board package submission at least
                 65 calendar days before the Investment Review Board meeting. The memorandum
                 also included the condition that any late submissions will be subject to additional
                 management internal controls. In addition, the Business Capability Lifecycle process
                 used for Defense business systems requires that BPR must be completed before new
                 projects are authorized.




10 │ DODIG-2013-111
Chief Management Officer of the Air Force Actions
The prior report identified that the CMO of the Air Force did not verify that business
processes were streamlined and efficient, as required by section 1072. In response
to the report, the Air Force CMO identified a documented process for the review of
BPR assertions and provided a narrative description and graphic illustration of the
process. The CMO also stated his approach for conducting BPR was being updated to
ensure business practices were changed before material solutions were considered,
and individual systems will be compared to assess whether a business case exists to
eliminate systems. In addition, the Air Force DCMO, as the precertification authority,
focused on the BPR documentation as a basis for determining if the investment
recommended was justified. Where BPR documentation shows overlap with other
system functionality, the Air Force DCMO will return certification requests.

In addition to providing comments to the final report, the Air Force provided additional
clarification for this audit. The response discussed the Enterprise Senior Working Group
as the governance body for the review of BPR. The Enterprise Senior Working Group
reviews defense business system investment funding in each of the functional portfolios
and makes recommendations to the pre-certification authority for certification approval.
If the BPR is not adequate, the pre-certification authority does not sign the investment
certification request to Office of the Secretary of Defense DCMO.


Recommendations
Recommendation B.2.a
We recommend that the Under Secretary of Defense (Comptroller)/Chief Financial
Officer update the Financial Improvement and Audit Readiness Plan to link material
weaknesses’ resolutions to the Enterprise Resource Planning systems being implemented
and identify how and when the deficiencies will be corrected.


Under Secretary of Defense (Comptroller)/Chief
Financial Officer Actions
The prior report recommended that the OUSD(C)/CFO should update the FIAR plan to
link material weaknesses’ resolutions to ERP systems being implemented and identify
how and when the deficiencies would be corrected. The OUSD(C)/CFO addressed the
DoD IG audit report recommendation by adding status information and new charts
linking the key control objectives by assessable unit by ERP system in the FIAR plan
status report. Key control objectives measure progress in achieving audit readiness by




                                                                                       DODIG-2013-111 │ 11
                 tracking the Component’s assessment of key control objectives and determining their
                 effectiveness. These metrics track progress in achieving the outcome of auditability and
                 a strong internal control program.


                 Recommendations
                 Recommendation B.2.b
                 We recommend that the Under Secretary of Defense (Comptroller)/Chief Financial
                 Officer update the Financial Improvement and Audit Readiness Plan to track the effect
                 of Enterprise Resource Planning systems’ implementation schedule delays on DoD’s
                 goals of obtaining auditable Statement of Budgetary Resources by FY 2014 and audit
                 readiness for all DoD financial statements by FY 2017.

                 Report No. DODIG-2012-111 recommended that the OUSD(C)/CFO should track the
                 effect of ERP’s implementation schedule delays on DoD’s ability to obtain an auditable
                 Statement of Budgetary Resources by FY 2014 and audit readiness for all DoD
                 financial statements by FY 2017.      The OUSD(C)/CFO addressed the DoD IG audit
                 report recommendation by assuring that for each identified key control objective, a
                 determination is made, based on input from the ERP program offices, to depict if
                 the ERP will address the risk, if it will be done manually, if the key control objective
                 identified is not applicable to the system, or if the key control objective has not been
                 determined to be one of the other responses at this time. The OUSD(C)/CFO personnel
                 felt the information collected from the ERP program offices will assist the OUSD(C)/CFO
                 in tracking the implementation schedule against the FIAR goals/deadlines.


                 Conclusion
                 DoD management identified corrective actions taken to address all previously reported
                 issues. However, additional work is required to determine if these actions are working as
                 intended and fully address the recommendations. Therefore, the recommendations will
                 remain open until additional audit work can be completed to verify the corrective actions
                 taken by DoD management are working as intended.




12 │ DODIG-2013-111
Table 3. Recommendation Status1
                      Recommendation            Recommendation     Recommendation   Recommendation
                           B.1.a                     B.1.b              B.2.a            B.2.b
                      OPEN - Actions           OPEN - Actions
                      Implemented              Implemented
 DCMO                                                              Not Applicable   Not Applicable
                      to Address               to Address
                      Recommendation           Recommendation
                      OPEN - Actions           OPEN - Actions
                      Implemented              Implemented
 CMO Army                                                          Not Applicable   Not Applicable
                      to Address               to Address
                      Recommendation           Recommendation
                      OPEN - Actions           OPEN - Actions
                      Implemented              Implemented
 CMO Navy                                                          Not Applicable   Not Applicable
                      to Address               to Address
                      Recommendation           Recommendation
                      OPEN - Actions           OPEN - Actions
 CMO                  Implemented              Implemented         Not Applicable   Not Applicable
 Air Force            to Address               to Address
                      Recommendation           Recommendation
                                                                   OPEN - Actions   OPEN - Actions
                                                                   Implemented      Implemented
 USD(C)/CFO           Not Applicable           Not Applicable      to Address       to Address
                                                                   Recommendation   Recommendation



Review of Internal Controls Over ERP Systems Cost
Estimates and Deployment Schedules
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
May 30, 2013, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. DoD internal controls over
ERP systems cost estimates and deployment schedules were effective as they applied to
the audit objectives.


Audit Scope and Methodology
We conducted this performance audit from February 2013 through July 2013 in
accordance with generally accepted Government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Our audit focused on changes in cost and schedule of the ERP systems, GFEBS, LMP,
DEAMS, DAI, Navy ERP, EBS-EC, and EBS-EProcurement, from report DODIG-2012-111

	1	
      Actions implemented as of June 2013 unless otherwise noted

                                                                                                     DODIG-2013-111 │ 13
                 issued July 13, 2012, to ensure the integrity of BPR assessments submitted for
                 DoD ERP programs. To meet our audit objective to determine whether the DoD ERPs
                 have experienced additional cost increases or schedule delays since our prior report,
                 we obtained explanations from the ERP PMOs for the cost and schedule changes that
                 they reported. The PMOs developed the cost estimates using a mixture of base-year,
                 current-year, and then-year values (to adjust for inflation).       We did not validate
                 these numbers to source documents or adjust them for inflation. We also reviewed
                 management-identified corrective actions taken to address all previously reported issues.

                 To accomplish these steps, we interviewed DoD officials from the Navy and Army
                 Program Executive Office Enterprise Information Systems; OUSD(C)/DCFO, Business
                 Integration Office; Logistics Modernization PMO; Office of Business Transformation,
                 Secretary of the Air Force; and Defense Logistics Agency.

                 We reviewed 2012 FIAR Plans from the USD(C)/CFO, DoD website to determine if
                 recommendations involving the FIAR were implemented.


                 Use of Computer-Processed Data
                 We did not rely on computer-processed data to perform this audit.


                 Prior Coverage
                 During the last 5 years, the GAO and DoD OIG have issued reports discussing
                 the ERP systems. Unrestricted GAO reports can be accessed over the Internet at
                 http://www.gao.gov.       Unrestricted   DoD    OIG   reports   can    be   accessed   at
                 http://www.dodig.mil/audit/reports.

                 You can obtain information about the DoD OIG from DoD Directive 5106.01, “Inspector
                 General of the Department of Defense,” April 20, 2012; DoD Instruction 7600.02, ““Audit
                 Policies,” April 27, 2007; and DoD Instruction 7050.3, “Access to Records and Information
                 by the Inspector General, Department of Defense,” March 22, 2013. Our website address
                 is www.dodig.mil.

                 We appreciate the courtesies extended to the staff. Please direct questions to me
                 at (703) 601-5945.




                 						                                         Lorin T. Venable, CPA
                 						                                         Assistant Inspector General
                 						                                         Financial Management and Reporting


14 │ DODIG-2013-111
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                           1.800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
